U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Doe Company v. United States of America
S.Ct. No. 20-1141

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 29,
2021, and placed on the docket on January 22, 2021. The government’s response is due on
March 24, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 26, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1141
DOE COMPANY
USA

WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N. STREET, NW.
WASHINGTON, DC 20036
202-346-4000
WJAY@GOODWINLAW.COM
EMILY M. NOTINI
GOODWIN PROCTER LLP
100 NORTHERN AVENUE
BOSTON, MA 02210
RICHARD M. STRASSBERG
GOODWIN PROCTER LLP
620 8TH AVENUE
NEW YORK, NY 10018

